No. 20-794

 

 

IN THE

Supreme Court of the Anited States

SERVOTRONICS, INC.,

Petitioner,
v.

ROLLS-ROYCE PLC AND THE BOEING COMPANY,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Seventh Circuit

BRIEF OF THE ATLANTA INTERNATIONAL
ARBITRATION SOCIETY AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,217 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 11, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
